           REVIEW OF
 FEDERAL TECHNOLOGY SERVICE’S
CLIENT SUPPORT CENTER CONTROLS
    AND TESTING OF CONTROLS
     NATIONAL CAPITAL REGION
REPORT NUMBER A050009/T/W/Z05013


          MAY 18, 2005
Results of Audit

We determined the National Capital Region CSC to be not compliant but making
progress and considered close to compliant. The Region has implemented
national controls identified in the Administrator’s “Get it Right” Initiative, and has
improved its overall contracting practices, compared with our past audit findings.
For example, we found no instances of improper use of the IT Fund, work being
performed outside the scope of the base contract, or unjustified extensions of
periods of performance. We found no instances of non-compliance with the
competition requirements of Section 803 of the National Defense Authorization
Act for Fiscal Year 2002. However, as directed in the Ronald W. Reagan
National Defense Authorization Act for Fiscal Year 2005, because of the two
deficiencies discussed below, the CSC is not fully compliant, and we will be
required to perform a subsequent audit of CSC contracting practices by March
2006 to determine whether the CSC has become compliant.

New Procurement Order Compliance Deficiency. We identified one task order
that was issued without a not to exceed price limitation as required by Federal
Acquisition Regulation 16.601(c) for time & material contracts. This order with a
value of $412,794 was issued to design, develop, and implement a database
system on a time & materials basis.

Existing Order Procurement Deficiency. We identified one task order with an
incomplete remediation strategy. The task order encompassed the requirements
definition, implementation and production (phases I, II and III respectively) of a
medical bill processing system, with operations to be accomplished under a
series of one-year options likely to exceed 95 percent of the total task order
value. The initial solicitation required a fully priced proposal for phases I and II,
but simply a unit price rate for phase III. The documented price analysis did not
include the production phase; it covered only the development and
implementation phases. There was no evidence that the cost of production was
considered as an award factor. Subsequently, the vendor has submitted a new
proposal dated 12/17/04 to cover current fiscal year operations already in
process. As of the end of audit fieldwork, price analysis of the new proposal
remained outstanding, and a viable acquisition plan for the remaining out years
has yet to emerge.

Conclusion

While not fully compliant, we found that the National Capital Region CSC has
made significant progress and is considered close to compliant in implementing
controls to ensure compliance with procurement regulations. The CSC has
implemented national controls identified in the Administrator’s “Get It Right”
Initiative and improved its overall contracting practices. However, we did find a
procurement compliance deficiency in one new order, and an incomplete
remediation strategy for an existing order that did not address pricing concerns.



                                          2
                      ATTACHMENT 1
MANAGEMENT COMMENTS
                                                               ATTACHMENT 2

           REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
  CLIENT SUPPORT CENTER CONTROLS AND TESTING OF CONTROLS
                   NATIONAL CAPITAL REGION
               REPORT NUMBER A05009/T/W/Z05013



                           REPORT DISTRIBUTION


                                                                         Copies

Commissioner, Federal Technology Service (T)                                 3

Regional Administrator, National Capital Region (WA)                         3

Assistant Inspector General for Auditing (JA, & JAO)                         2

Administration and Data Systems Staff (JAS)                                  1

Regional Inspector General for Investigations, Washington Field Office (JI-W) 1
